          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




     Recovery Act Report – Region 5 Construction
     Manager as Constructor Contracts
     Audit of PBS’s Major Construction and
     Modernization Projects Funded by the American
     Recovery and Reinvestment Act of 2009
     Report Number A090172/P/R/R12007
     May 10, 2012




A090172/P/R/R12007
               Office of Audits
               Office of Inspector General
               U.S. General Services Administration


    DATE:          May 10, 2012

    TO:            Linda Chero
                   Acting Commissioner, Public Buildings Service (P)

    FROM:          Nicholas Painter
                   Audit Manager, Office of Inspector General
                   Southeast Sunbelt Region Field Audit Office (JA-4)

    SUBJECT:       Recovery Act Report – Region 5 Construction Manager as
                   Constructor Contracts Audit of PBS’s Major Construction and
                   Modernization Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
                   Audit Number A090172/P/R/R12007

During our oversight of the General Services Administration’s (GSA) major
modernization and new construction projects funded by the American Recovery and
Reinvestment Act (Recovery Act), we noted significant procurement concerns in the
Great Lakes Region (Region 5) that warrant your attention. The Public Buildings Service
(PBS) awarded eight Construction Manager as Constructor (CMc) contracts without
adequate price competition, thereby violating Federal Acquisition Regulation (FAR) and
Competition in Contracting Act (CICA) requirements. As a result, PBS did not have an
adequate basis to establish price reasonableness.

GSA Provided Bidders with Pricing Information and Violated Competition
Requirements

In soliciting for the CMc contracts, PBS provided pricing information to bidders, thereby
violating FAR and CICA competition requirements, as well as FAR disclosure
restrictions.

In general, a CMc contract is awarded for design phase services 1 at a firm-fixed price
with an option for construction phase services at a Guaranteed Maximum Price (GMP).
The GMP is supposed to act as a ceiling price for the construction option. The GMP,
1
 Design phase services include activities such as ensuring the design complies with applicable
regulations, codes, and standards, as well as ensuring the constructability of the design.



A090172/P/R/R12007                        1
which is comprised of the Estimated Cost of Work (ECW), the Construction Contingency
Allowance (CCA), 2 and the contractor’s fee for construction, 3 should be proposed by
prospective bidders. Total pricing for design services and construction phase options
should be evaluated jointly as part of the selection process.

We reviewed the CMc procurements for ten major Recovery Act modernization projects
in the Great Lakes Region and found that for eight, PBS provided the prospective
bidders with pricing information during the solicitation process. As shown below, PBS
provided the ECW and CCA for six contracts and the entire GMP for two.

                                         Pricing                                         Percent of
                                                                       GMP at Base
                                        Elements      Total Pricing                     Construction
              Project                                                   Contract
                                       Provided by     from PBS                         Phase Pricing
                                                                         Award
                                          PBS                                             from PBS

Major General Emmett J. Bean           ECW, CCA*        $20,374,640      $20,674,640            98.5%
Center (Bean) - Option 1
Major General Emmett J. Bean           ECW, CCA*         50,732,240       51,732,240            98.1%
Center - Option 2
John C. Kluczynski Federal Building
                                       ECW, CCA*         66,950,000       68,121,625            98.3%
and U.S. Loop Post Office Facility
(Kluczynski)
South State Street – 10 West           ECW, CCA*         17,121,600       17,626,687            97.1%
Jackson (South State Street)
Anthony J. Celebrezze Federal          ECW, CCA*         96,720,000       98,695,000            98.0%
Building (Celebrezze)
Chicago Federal Center                 ECW, CCA*         18,200,000       18,593,750            97.9%
Bishop Henry Whipple Federal           ECW, CCA*         85,646,000       87,497,238            97.9%
Building (Whipple)
Minton Capehart Federal Building          GMP            35,500,000       35,500,000           100.0%
(Minton Capehart)
Birch Bayh U.S. Courthouse (Birch         GMP            37,450,000       37,450,000           100.0%
Bayh)
* The CCA was provided as 4 percent of the ECW.

By providing this pricing information, PBS eliminated cost or pricing as an evaluation
factor for nearly the entire price of these contracts’ construction phase options; thereby
violating FAR and CICA competition requirements. Further, in providing this pricing




2
  The CCA covers costs incurred by the contractor for the performance of construction work in excess of
the ECW.
3
  The contractor’s fee covers indirect costs and profit.



A090172/P/R/R12007                            2
information, PBS could not effectively evaluate option pricing in accordance with FAR
Subpart 17.207(f). 4

In addition, PBS violated FAR restrictions regarding the type of information that may be
disclosed in a solicitation. FAR 36.204 prohibits disclosing exact pricing data. It states,
“advance notices and solicitations shall state the magnitude of the requirement in terms
of physical characteristics and estimated price range” (emphasis added).

For the majority of the projects, PBS did not initially provide the ECW or GMP figures to
the prospective bidders. However, Regional officials ultimately deemed it necessary
when bidders indicated they did not have sufficient information to price the projects
because the project designs were incomplete. PBS believed that providing this pricing
data was allowable based on draft General Services Administration Manual (GSAM)
guidance. Specifically, the draft of GSAM 536.214-2 “Special Guidance for CMc
Contracts” stated:

         …the CCA is established as a government-defined percentage of the
         ECW. Solicitations for a CMc contract may establish a target ECW, in
         which case the only pricing information required in offers is a fixed price
         for Design Phase Services and the contractor’s Fee.

While this guidance would allow solicitations for a CMc contract to establish a target
ECW, it does not appear to authorize the disclosure of the Government’s estimated
GMP. Further, this draft guidance was not officially adopted into the GSAM. On the
contrary, current PBS guidance on CMc contracting encourages developing design to
maximize pricing competition. It states:

        The [Request for Proposals] is issued when design requirements have
        been developed to a sufficient degree of specificity to permit competing of
        offers with meaningful pricing for reliable differentiation, and also early
        enough in design to maximize the value of the CMc’s Design Phase
        services. The CMc should be competed on the basis of a complete
        program and final design concepts.

This CMc policy was issued subsequent to the Region 5 CMc contract awards;
however, it underscores the importance of design development in attaining meaningful
price competition.

The process used by Region 5 for these procurements did not allow for such
competition. For instance, when bidders for the Whipple contract indicated during the
solicitation process that it was impossible to establish a GMP because of a lack of
specific design information, PBS provided the ECW and CCA at $85.6 million;
approximately 98 percent of the awarded $87.5 million GMP. Then as funding became

4
 Subpart 17.207(f) requires that the Government evaluate option pricing as part of the initial contract
competition.



A090172/P/R/R12007                               3
available, PBS continued to expand the project’s scope. PBS was aware of the potential
for this additional work at the time of initial contract award; however, this work was
specifically excluded from the contract (bidders did not propose pricing). Eventually, the
Whipple GMP increased by nearly 73.8 percent to $152.1 million; largely as a result of
scope revisions. As a result, PBS awarded the base contract and all modifications on
a non-competitive basis.

Price Reasonableness Determinations Were Inadequate

PBS did not make adequate determinations of price reasonableness for these eight
CMc contracts. In general, price reasonableness for construction contracts can be
established through price competition and/or through a cost comparison using an
independent government estimate (IGE). While the contracting officers performed some
price evaluation for the initial contract awards based on the bids received and
comparisons to the IGEs, there was no meaningful price competition for the majority of
the work.

Although PBS used a competitive bid process, pricing for the construction options was
not based on competition. PBS received multiple bids for each project; however,
proposed pricing was virtually identical for each respective project because PBS
provided bidders with specific pricing information in the respective solicitations. By doing
this, PBS limited price competition to minor portions of the contracts. This negated price
competition as a factor in establishing price reasonableness. As depicted in the
following chart, PBS-provided pricing represented, on average, approximately 98
percent of the total awarded contract values for these eight procurements.

                                        PBS-Provided         Total Awarded        Percent of Pricing
              Project
                                          Pricing            Contract Value*          from PBS

Bean (Options 1 & 2)                         $71,106,880           $72,594,500                98.0%
Kluczynski                                    66,950,000            68,338,625                98.0%
South State Street                            17,121,600            17,772,810                96.3%
Celebrezze                                    96,720,000            98,970,000                97.7%
Chicago Federal Center                        18,200,000            18,685,250                97.4%
Whipple                                       85,646,000            87,858,243                97.5%
Minton Capehart                               35,500,000            35,545,700                99.9%
Birch Bayh                                    37,450,000             37,688,000               99.4%
*Total Awarded Contract Value includes design phase services and the GMP for construction.


In one instance, a bidder initially proposed an ECW that was lower than the amount in
the solicitation, but was subsequently instructed by PBS to submit a revised proposal
using the PBS-provided ECW to ensure consistency amongst all bids. Ultimately, PBS
awarded the contract to that bidder at a higher ECW than was originally proposed.



A090172/P/R/R12007                            4
Conclusion

PBS’s procurement methodology for these CMc contracts essentially eliminated price
competition. This practice violated competition requirements, and calls into question the
reasonableness of the contract pricing. To ensure that PBS meets competition
requirements and achieves reasonable pricing, PBS should adhere to current CMc
procurement policy for future CMc contracts.

Recommendations

As PBS has been developing and implementing management controls for CMc
contracts in response to prior audit reports, we are making no additional
recommendations at this time.
Management Comments

In its response to the draft report, PBS concurred with our findings and accepted the
report recommendations. PBS’s response is included in its entirety as Attachment B to
this report.


We appreciate the support that has been provided throughout this audit. If you have
any questions concerning this report, please contact me at (404) 331-5520.

Sincerely,



Nicholas Painter
Audit Manager (JA-4)




A090172/P/R/R12007                      5
Appendix A – Objective, Scope, and Methodology
Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided the
General Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund.
In accordance with the Recovery Act, the GSA Public Buildings Service (PBS) is using
the funds to convert federal buildings into High-Performance Green Buildings as well as
to construct federal buildings, courthouses, and land ports of entry. The Recovery Act
mandated that $5 billion of the funds were to be obligated by September 30, 2010, and
that the remaining funds were to be obligated by September 30, 2011. The GSA Office
of Inspector General is conducting oversight of the projects funded by the Recovery Act.

Objective

The objective of the Office of Inspector General’s Recovery Act oversight is to
determine if PBS is planning, awarding, and administering contracts for major
construction and modernization projects in accordance with prescribed criteria and
Recovery Act mandates.

Scope

Our audit work for this report was performed between August 2010 and April 2011in the
Great Lakes Region. The scope of our audit included CMc contracts for ten major
Recovery Act modernization projects in the Great Lakes Region, including:

   •   Minton Capehart Federal Building
   •   Birch Bayh U.S. Courthouse
   •   Major General Emmett J. Bean Center
   •   John C. Kluczynski Federal Building and U.S. Loop Post Office Facility
   •   South State Street – 10 West Jackson
   •   Anthony J. Celebrezze Federal Building
   •   Chicago Federal Center
   •   Bishop Henry Whipple Federal Building
   •   John W. Peck Federal Building; and
   •   Patrick V. McNamara Federal Building.

Methodology

To accomplish the objective we conducted fieldwork in the Great Lakes Region,
reviewed contract files and other pertinent project documents, met with PBS regional
management and project staff, and reviewed applicable guidance and regulations.



A090172/P/R/R12007                    A-1
Appendix A – Objective, Scope, and Methodology (cont.)
Except as noted below, we conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act
projects as well as audit guidance being applied to all Recovery Act projects. A
separate audit guide was not prepared for this project.

Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment. Only those
management controls discussed in the report have been assessed.




A090172/P/R/R12007                    A-2
Appendix B – Management Comments




A090172/P/R/R12007    B-1
Appendix C – Report Distribution
Acting Commissioner, PBS (P)

Acting Deputy Commissioner, PBS (P)

PBS Chief of Staff (PB)

Regional Administrator (5A)

Regional Commissioner (5P)

Regional Counsel (LD5)

Regional Recovery Executive (5PN)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (PFF)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A090172/P/R/R12007                     C-1
